  Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




  Child Support Enforcement Customer
                 Service:
Parent Perceptions of Telephone and Office
     Visit Experiences In Four States




                      JANET REHNQUIST
                      INSPECTOR GENERAL

                         MARCH 2003
                        OEI-06-02-00250
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
q             DEPARTMENT OF HEALTH St, HUMAN SERVICES                                     Office of Inspector General


               MAR 2 6 2003
    Date

    From    Joseph . Vengrin
            Deputy Inspector General for Evaluation and Inspections

    Subject OIG Memorandum Report: "Child Support Enforcement Customer Service: Parent
           Perceptions of Telephone and Office Visit Experiences in Four States," OEI-06-02-00250
    'To
           Wade F. Horn, Ph.D.
           Assistant Secretary for
             Children and Families

           Attached is a memorandum report that describes the perceptions of custodial and noncustodial
           parents in four states concerning the customer service, based on telephone and office visit
           experiences, they have received through child support enforcement offices. .

           Due to a shifting client base and the performance initiatives of the Government Performance
           and Results Act, the Office of Child Support Enforcement has recently placed greater
           emphasis on states providing effective customer service to parents. To describe parent
           perceptions of child support enforcement customer service, we analyzed responses from
           487 custodial and 196 noncustodial parents in four states (Missouri, New Jersey, Texas, and
           Washington). Respondent parents- reported a number of problems with service, especially
           experienced by noncustodial parents, and only a modest level of satisfaction. We found that
           nearly all parent respondents had contacted the agency through telephone calls and office
           visits, most often to gain information about their case. Those who reported encountering
           particular problems, such as rude treatment, often also rated their overall service experience
           poor. We found that direct contact with agency staff, whether by telephone or in person,
           resulted in more positive experiences.

           This report is being issued directly in final since it contains no recommendations. If you have
           any questions or comments about this report, please do not hesitate to call me or
           John Hapchuk, Director, Program Evaluation Division., at (202) 619-0480 or though email
           [Jhapchuk@oig.hhs.gov . To facilitate identification, please refer to report number OEI-06-02-
           00250 in all correspondence.

           Attachment
                              EXECUTIVE SUMMARY

OBJECTIVE

           To describe parent perceptions of child support enforcement customer service, based on
           telephone and office visit experiences of parent respondents in four states.


BACKGROUND

           The base of child support enforcement clients has changed somewhat over the years, shifting
           from primarily single mothers on welfare to a more diverse group. At the same time, the federal
           Office of Child Support Enforcement (OCSE) has put greater emphasis on customer service
           through implementation of the Government Performance and Results Act (GPRA), a key
           purpose of which is to improve federal program effectiveness and public accountability by
           promoting a new focus on results, service quality, and customer satisfaction. To evaluate child
           support enforcement customer service, we surveyed custodial and noncustodial parents in four
           states about their service experiences, focusing specifically on telephone calls and visits to
           offices.


FINDINGS

Custodial and noncustodial parent respondents report that they commonly
encountered problems in contacting offices, especially by telephone

           Among respondents, 93 percent of custodial parents and 96 percent of noncustodial parents
           who telephoned reported problems of some kind with their calls. Parents who reported a
           problem with their office visit were fewer, but still substantial, with 61 percent of custodial
           parents, and 77 percent of noncustodial parents who visited reporting problems of some kind
           with their visit. Those who encountered particular problems, such as rude treatment, often also
           rated their overall service experience poor.

Nearly all parent respondents have contacted the agency at least once, most
often by telephone and to access specific case information
      Ninety-one percent of custodial parents and 86 percent of noncustodial parents who responded
      have telephoned the agency, and 96 percent of these have done so more than once. Office
      visits are less common, with 58 percent of custodial parents and 61 percent of noncustodial
      parents who responded visiting at least once. Reasons for making contact were similar for
      telephone calls and office visits, with most parents requesting or providing information about
      their specific cases, and about a third to obtain general child support information.


CSE Customer Service: Perceptions of Parents          i                                    OEI-06-02-00250
Noncustodial parent respondents rated customer service more poorly than
custodial parent respondents, and less often reported they got help

           Satisfaction ratings of both telephone and office contact were lower for noncustodial parent
           respondents, with only 32 percent of those telephoning and 38 percent of those visiting
           reporting a ‘good’ or ‘excellent’ experience. Although more positive, even ratings by custodial
           parent respondents were modest, with 44 percent of those telephoning and 53 percent of those
           visiting rating their latest contact as ‘good’ or ‘excellent’. Of those who did not have a positive
           experience, reports of ‘poor’ or ‘very poor’ experiences were more common for noncustodial
           parents than custodial parents, who more often reported a neutral experience. Additionally,
           with both methods of contact, custodial parent respondents more frequently reported ultimately
           getting the help they needed than did noncustodial parent respondents.

Whether by telephone or in the office, parent respondents more often report
they got the help they needed when they had direct contact with staff

           Both custodial and noncustodial parent respondents who had direct contact with staff, through a

           telephone call with a live representative or an office visit, more often report they received help

           than those who reached a fully-automated telephone system with no staff contact. 

           Noncustodial parents in particular fared poorly with fully-automated systems, with only 20

           percent reporting they received help. The benefit of direct contact is apparently possible

           through telephone. The highest levels of help received were reported by respondents who

           spoke with a live representative by telephone, with 80 percent of custodial parents and 77

           percent of noncustodial parents reporting they got the help they needed.



SUMMARY

Respondents reported they are only modestly satisfied with customer service
provided through telephone and office visits, and often experience problems,
but reported they got more help through direct contact with staff

           Parent respondents revealed a number of problems with child support enforcement customer
           service, and only a modest level of satisfaction. Although both types of parents had areas of
           dissatisfaction and problems, these were more pronounced with noncustodial parents than with
           custodial parents. Both custodial and noncustodial parents more frequently reported receiving
           help from the child support enforcement agency if they had direct contact with staff. State child
           support enforcement agencies appear to have an opportunity to enhance customer service
           provided to parents through telephone and office visit contact, possibly by providing personal
           contact with staff when possible, addressing the problem of staff rudeness, and ensuring that
           service improvements are applied to noncustodial as well as custodial parents.




CSE Customer Service: Perceptions of Parents            ii                                    OEI-06-02-00250
                                          TABLE OF CONTENTS


                                                                                                                                       PAGE



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


PRIMER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


ENDNOTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDICES


           A: Comparison of Sample States to National Averages . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


           B: Descriptive Characteristics of Sample and Respondents . . . . . . . . . . . . . . . . . . . . . . . . . 14


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                                          INTRODUCTION


OBJECTIVE

           To describe parent perceptions of child support enforcement customer service, based on
           telephone and office visit experiences of parent respondents in four states.


BACKGROUND

Child Support Enforcement Clients

           The base of child support enforcement clients has changed somewhat, shifting from primarily
           single mothers on welfare to a more diverse group. In 2000, only 19 percent of the national
           child support enforcement caseload were current recipients of Temporary Assistance for
           Needy Families (TANF).1 The largest number of cases (46 percent) involved low-income
           working families who are former TANF recipients, with the remaining 35 percent of cases
           involving families who have never been on TANF. Additionally, the federal Office of Child
           Support Enforcement (OCSE) encourages states to view both custodial and noncustodial
           parents as clients through which they can improve children’s lives, rather than perceiving
           noncustodial parents solely as debtors.2 In response to these changes, the mission of state child
           support agencies has largely shifted from welfare recoupment to providing enforcement and
           payment services.

Customer Service in Child Support Enforcement

           The Federal Government has recently put greater emphasis on improving customer service. In
           1993, Congress passed the Government Performance and Results Act (GPRA), a key purpose
           of which is to improve federal program accountability by promoting a new focus on results,
           service quality, and customer satisfaction.3 OCSE was selected as a pilot agency for early
           implementation of GPRA. Included in OCSE’s goals under the GPRA project is improvement
           of customer service delivery and quality.

           To meet its GPRA objectives, OCSE created a national customer satisfaction work group,
           whose members represent state and local child support enforcement agencies. A report
           generated by the work group emphasized the importance of state-specific approaches for
           promoting and facilitating access to child support enforcement services, as well as encouraging
           collaboration among government agencies and other organizations.4 It also defined customer
           satisfaction in support enforcement as encompassing three aspects:

           •          satisfaction with client-worker interaction, whether in-person, phone, or mail
           •          satisfaction with support payment accuracy, amount, and timeliness
           •          satisfaction with the effect of child support on children


CSE Customer Service: Perceptions of Parents              1                                    OEI-06-02-00250
           OCSE has given other indications of its interest in improving customer service. A stated goal in
           its Strategic Plan for 2000 - 2004 is to operate a program that is responsive to customers, as
           indicated by satisfaction surveys of custodial and noncustodial parents, and state child support
           agencies (although, to date, no such surveys have been conducted).5 Additionally, the Child
           Support Performance and Incentive Act of 1998 requires state agencies to develop their own
           self-assessment of performance, which includes an optional category addressing programs and
           innovative practices to improve client services.6


METHODOLOGY

Scope

           To describe parent perceptions of child support enforcement customer service, we surveyed
           custodial and noncustodial parents in four states who had existing child support orders at the
           time of our data collection.7 We asked these parents about their service experiences, focusing
           specifically on telephone calls and office visits, the methods of interaction highlighted by the
           OCSE customer service work group.8 This study was conducted in accordance with the
           Quality Standards for Inspections, issued by the President’s Council on Integrity and Efficiency.

Sampling

           We purposively selected four states for inclusion in our study: Missouri, New Jersey, Texas,
           and Washington. Selected states varied on a number of factors, such as state caseload size,
           geographic region, and percentage of cases with collections. See
           Appendix A for a description of sample states on various factors.

           We received from each sample state lists of custodial and noncustodial parents. These lists
           included all parents involved with state child support enforcement cases, excluding cases
           without child support orders, interstate cases, arrears-only cases, and cases pending closure.9
           We combined the state lists to create separate population frames of 872,629 custodial parents
           and 865,989 noncustodial parents.10 We randomly selected 2000 custodial parents and 2000
           noncustodial parents, asking states to provide mailing addresses, and case and demographic
           information for each selected parent. We eliminated cases with incomplete mailing addresses
           and those containing special delivery instructions. These reductions left 1,824 custodial parents
           and 1,561 noncustodial parents, from which we randomly selected 1,500 of each to receive
           surveys.

Pre-test of Survey Instrument

           We conducted a pre-test of the questionnaire to gauge respondent understanding, adjust the
           reading level, and estimate eventual response rates, using lists of 400 custodial and noncustodial
           parents drawn randomly from the caseloads of two states. We received



CSE Customer Service: Perceptions of Parents           2                                     OEI-06-02-00250
           responses from 33 percent of custodial parents and 9 percent of noncustodial parents.
           Response rates reflect the fact that it is difficult to survey the population of child support
           enforcement clients, particularly noncustodial parents. In a study commissioned by OCSE, the
           Urban Institute collected response rates from a few states which had conducted child support
           enforcement customer satisfaction surveys, and found that response rates averaged 28 percent
           for custodial and 12 percent for noncustodial parents.11 Other analysis of customer satisfaction
           survey research confirms our expectation of low response, indicating that customers who had
           only limited experience with service or did not have strongly positive or negative experiences
           may not be motivated to respond.12 Through telephone calls to non-respondents during our
           pre-test, we found that respondent and non-respondent experiences were similar.

Data Collection and Analysis

           We mailed each parent in our sample an initial questionnaire and a postcard reminder 10 days
           later. We also mailed a second, identical questionnaire to parents who did not respond to the
           initial mailing within three weeks. Ninety-one custodial parent and 223 noncustodial parent
           questionnaires were returned by the post office for incorrect addresses, constituting 6 percent
           of custodial parents and 15 percent of noncustodial parents in our sample. We continued to
           include these parents in computing our response rates, deeming them non-respondents by virtue
           of not being reached.

           Analysis of parent perceptions is based on responses to mail questionnaires received from
           parents between October 2001 and January 2002. We received completed questionnaires
           from 487 custodial parents and 196 noncustodial parents, representing 32.5 percent and 13.1
           percent response rates, respectively. Descriptive statistics of the characteristics of our final
           sample and respondents are listed in Appendix B.

Data Limitations

           We recognize a number of limitations to our data. First, although parent responses from our
           four sample states provide useful information for the broader child support enforcement
           community, information in our report cannot be generalized beyond these respondents.
           Second, while our study examines the experiences and perceptions of parents, it does not
           examine the customer service practices of agencies in individual sample states. Because we
           would not be able to attribute any differences to state practices, we did not separately analyze
           responses of parents from individual sample states. Third, our questionnaire generally asked
           parents about their most recent experiences, and therefore, responses may not reflect the
           entirety of parents’ child support enforcement customer service experiences.




CSE Customer Service: Perceptions of Parents           3                                     OEI-06-02-00250
                       QUESTIONNAIRE PRIMER


           The cover section of our questionnaire informed custodial and noncustodial parents that our
           specific aim was to describe their experiences with child support enforcement customer service,
           determining “how hard or easy it is for you to get help from your child support office when you
           need it.”



Questions included the following, presented by method of contact:



           Office Visits

           <          Have you visited a child support enforcement office?
           <          If yes, how many times have you visited?
           <          When was the last time you visited?
           <          What was the reason for the latest visit?
           <          Did you get the help you needed when you visited?
           <          What problems did you experience when you visited, if any?
           <          How would you rate your latest visit?



            Telephone Calls

           <          Have you ever telephoned the child support enforcement office?

           <          If yes, how many times have you telephoned?

           <          When was the last time you telephoned?

           <          Did you reach a machine, a person, or both when you telephoned?

           <          What was the purpose of the latest call?

           <          Did you get the help you needed when you called?

           <          What problems did you encounter when you called, if any?

           <          How would you rate your latest telephone call?




           Internet

           <	         Have you ever tried to find the child support enforcement agency’s website on the
                      internet?

CSE Customer Service: Perceptions of Parents             4                                   OEI-06-02-00250
                                                 FINDINGS

           Due to a shifting client base and GPRA performance initiatives, OCSE has recently placed greater
           emphasis on states providing effective customer service to parents. To describe parent perceptions
           of child support enforcement customer service, we analyzed surveys received from 487 custodial
           and 196 noncustodial parents in four states. Parents reported a number of problems with service
           and only a modest level of satisfaction, but we found that direct contact with agency staff resulted in
           more positive experiences.

           Custodial and noncustodial parents report that they commonly encountered
           problems in contacting offices, especially by telephone

           Among respondents, 93 percent of custodial parents and 96 percent of noncustodial parents who
           telephoned the child support office reported problems of some kind with their calls (see Table 1).
           Responding parents who reported a problem with their office visits were fewer, but still substantial,
           with 61 percent of custodial parents and 77 percent of noncustodial parents reporting problems of
           some kind with their visits. Problems were similar for both types of parents, except that noncustodial
           parents more frequently cited rude treatment.


                                   Table 1: Problems Encountered By Method of Contact

              Telephone Call Problems                     Custodial Parents        Noncustodial Parents
                                                              n = 439                    n = 168
                       Any type of problem                93%              (408)     96%             (161)


                       Reached an automated system, but   37%              (162)     49%              (82)
                       wanted a live representative

                       Caseworker unavailable             31%              (136)     45%              (75)

                       On hold a long time                28%              (123)     38%              (64)

                       Line often busy                    26%              (114)     38%              (64)

                       Treated rudely                     10%               (44)     20%              (34)

              Office Visit Problems                              n = 280                   n = 119

                       Any type of problem                 61%             (171)     77%             (91)


                       Office far away                    27%              (75)      22%             (26)

                       Long waits for service             24%              (68)      29%             (35)

                       Caseworker unavailable             23%              (64)      35%             (41)

                       Hard to visit when open            14%              (39)      23%             (27)

                       Treated rudely                     10%              (28)      27%             (32)




CSE Customer Service: Perceptions of Parents              5                                    OEI-06-02-00250
           Problems with parent-agency interaction are noteworthy due to the large number of parents who
           contact the child support enforcement agency for assistance. Nearly all respondents have contacted
           the agency at least once, the largest number by telephone.13 Ninety percent of custodial and
           noncustodial parent respondents have telephoned the agency, 59 percent have visited, and 10 percent
           report having attempted to access agency websites. In most cases, clients have contacted the agency
           more than once. Ninety-six percent of respondents who telephoned the office have done so more than
           once, with the majority telephoning between 6 and 20 times over the course of their time as clients.
           Multiple office visits are somewhat less common. Seventy-two percent of responding parents who
           have visited a child support office have visited more than once, with most of these having visited
           between two and five times.

Both custodial and noncustodial respondents telephone and visit the agency most
often to give or receive information about their own cases

           Custodial and noncustodial parent respondents report they most often contact the child support
           enforcement agency regarding their individual cases (see Table 2), either to ask for or provide case
           information. General child support enforcement information was also sought, with about a third of
           respondents contacting the agency to obtain program information not specific to their enforcement
           case. Noncustodial parents mentioned responding to a mail notice as a reason for contact more
           frequently than custodial parents, while custodial parents more frequently reported calling the office
           to check on a specific payment.




                                     Table 2: Reasons For Contact By Method of Contact

               Reasons For Telephone Calls                  Custodial Parents        Noncustodial Parents
                                                                n = 439                    n = 168

                       Ask a question about parent’s        63%              (276)    65%             (109)

                       Check on a specific payment          50%              (220)    21%               (35)

                       Get general information              36%              (158)    37%               (62)

                       Respond to a mail notice             16%               (70)    39%               (66)

                       Get help collecting a late payment   14%               (61)            N/A

               Reasons For Office Visits                           n = 280                  n = 119

                       Give information about client’s      48%              (134)    40%               (48)

                       Ask a question about client’s case   46%              (129)    55%               (65)

                       Get general information              32%               (89)    32%               (38)

                       Get help collecting a late payment   29%               (81)            N/A

                       Respond to a mail notice             21%               (59)    42%               (50)




CSE Customer Service: Perceptions of Parents                   6                                    OEI-06-02-00250
Noncustodial parent respondents rated customer service more poorly than
custodial parent respondents, and less often reported they got help

           Satisfaction ratings of both telephone and office contact were lower for noncustodial parent
           respondents, with only 32 percent of those telephoning and 38 percent of those visiting reporting a
           ‘good’ or ‘excellent’ experience (see Table 3). Although more positive, even ratings by custodial
           parent respondents were modest, with 44 percent of those telephoning and 53 percent of those
           visiting rating their latest contact as ‘good’ or ‘excellent’. Of those who did not have a positive
           experience in contacting the agency, reports of ‘poor’ or ‘very poor’ experiences were more
           common for noncustodial parents than custodial parents, who more often rated their customer
           service fair.



                                         Table 3: Customer Service Ratings By Method

              Ratings of Telephone Calls                          Custodial Parents       Noncustodial Parents
                                                                      n = 426                   n = 161

                      ‘Good’ or ‘excellent’                       44%             (188)    32%             (51)
                      ‘Fair’                                      28%             (119)    25%             (40)
                      ‘Poor’ or ‘very poor’                       28%             (119)    44%             (70)

              Ratings of Office Visits                                  n = 277                  n = 111
                      ‘Good’ or ‘excellent’                       53%             (146)    38%             (42)
                      ‘Fair’                                      28%             (78)     24%             (27)
                      ‘Poor’ or ‘very poor’                       19%             (53)     38%             (42)

              Source: Analysis of Survey Responses, Office of Inspector General




           Parents who had particular problems also often rated service poor overall

           While most parent respondents reported some kind of problem with telephone and office service,
           those who encountered particular problems also often rated their service experience as ‘poor’ or
           ‘very poor.’ Table 4 lists the problems which had the highest proportion of respondents also rating
           their customer service experience as poor overall. Most prominently, for both telephone calls and
           office visits, parents who reported the problem of rude treatment very often gave poor service
           ratings.




CSE Customer Service: Perceptions of Parents                       7                                  OEI-06-02-00250
Whether by telephone or in the office, parent respondents more often reported
they got help when they had direct contact with staff


                               Table 4: Proportion of Respondents Rating Service as
                                   ‘Poor’ or ‘Very Poor’ by Problems Encountered

                Telephone Problems               Custodial Parents            Noncustodial Parents
                                               Proportion with Problem      Proportion with Problem who
                                               who Rated Service Poor           Rated Service Poor

                 Treated rudely                      83% (34/41)                    91% (31/34)

                 Reached an automated               50% (80/160)                    64% (52/81)
                 system,
                 but wanted a live
                 representative

                 Caseworker unavailable             50% (68/136)                    59% (44/75)

                Office Visit Problems            Custodial Parents           Noncustodial Parents
                 Treated rudely                      78% (23/27)                    83% (27/32)

                 Caseworker unavailable              45% (29/64)                    54% (22/41)

                 Long waits for service              40% (27/67)                    66% (23/35)




           In addition to rating their experiences, parent respondents also reported whether they ultimately
           received the help they needed through their telephone calls and office visits. Figure 1 shows that
           both custodial and noncustodial parent respondents who had direct contact with staff, through a
           telephone call with a live representative or an office visit, more often reported they received help
           than those who reached a fully-automated telephone system with no staff contact.14 Noncustodial
           parent respondents, in particular, fared poorly with fully-automated systems, with only 20 percent
           reporting they received help. However, the benefit of direct staff contact is apparently possible
           through telephone. The highest levels of help received were reported by respondents who spoke
           with a live representative by telephone, with 80 percent of custodial parents and 77 percent of
           noncustodial parents reporting they got the help they needed.




CSE Customer Service: Perceptions of Parents               8                                  OEI-06-02-00250
                               Figure 1: Parents Who Received Help by Method of Contact
                        100%
                                                 Direct Access to Staff                  Automated Access Only
                                 80% 77%
                        80%                          75%
        Received Help                                      63%        64%
                        60%                                                  51%
                                                                                                   43%
                        40%                                                                                         Custodial
                                                                                                                    Noncustodial
                                                                                                          20%
                        20%


                         0%
                               Live representative   Office visit   Automated and live            Fully-automated
                                  by telephone                         by telephone                   telephone



        Source: Analysis of Survey Responses, Office of Inspector General




CSE Customer Service: Perceptions of Parents                                       9                                OEI-06-02-00250
                                               SUMMARY

Respondents reported they are only modestly satisfied with customer service
provided through telephone and office visits, and often experience problems, but
reported they got more help through direct contact with staff

           Parent respondents revealed a number of problems with child support enforcement customer service,
           and only a modest level of satisfaction. Low customer satisfaction appears to be related to whether
           clients encounter certain types of problems, including caseworker unavailability and rude treatment.
           Although both types of parent respondents had areas of dissatisfaction and problems, these were
           more pronounced with noncustodial parents than with custodial parents. The lowest ratings of service
           and receipt of help occurred among parents, particularly noncustodial, who reached fully-automated
           telephone systems without access to a live representative. Both custodial and noncustodial parents
           more frequently reported receiving help from the child support enforcement agency if they had direct
           contact with staff.

           State child support enforcement agencies appear to have an opportunity to enhance customer service
           provided to parents through telephone and office visit contact. Ideas for accomplishing this include
           providing personal contact with staff when possible, addressing the problem of staff rudeness, and
           ensuring that service improvements are applied to noncustodial as well as custodial parents.




CSE Customer Service: Perceptions of Parents            10                                OEI-06-02-00250
                                                ENDNOTES


1.	        Office of Child Support Enforcement, Administration for Children and Families, U.S. Department
           of Health and Human Services, Annual Statistical Report for FY 2000: Table 41.

2.	        Office of Child Support Enforcement, Administration for Children and Families, U.S.
           Department of Health and Human Services, Child Support Enforcement Strategic Plan with
           Outcome Measures for FY 2000-2004. Vision statement: "The Program will put children
           first by helping both parents assume responsibility for the economic and social well-being,
           health and stability of their children. We recognize the value of improved relationships
           with both parents."

3.         Government Performance and Results Act, P.L. 103-62, section 2 (b)(3), 1993.

4.	        Office of Child Support Enforcement, Administration for Children and Families, U.S. Department
           of Health and Human Services. “The Implementation of GPRA at the Office of Child Support
           Enforcement.” Washington, D.C.; February, 1996.

5.	        Office of Child Support Enforcement, Administration for Children and Families, U.S. Department
           of Health and Human Services, OCSE Strategic Plan, Goal 4-B, June, 2000.

6.         Child Support Performance and Incentive Act of 1998, P.L. 105-200, section 31, 1998.

7.	        In this report, we use the term ‘parent’ to refer to custodial and noncustodial child support
           enforcement clients, but recognize that some of these clients may actually be relatives, foster
           parents, or other guardians.

8.	        We excluded the third method of contact mentioned in the work group’s report, interaction
           through mail, because our pre-test indicated it is difficult to collect meaningful information about
           parent contact with the agency through mail service.

9.	        We excluded cases without orders and interstate or arrears-only cases, because these clients may
           have had little agency interaction, and cases pending closure to ensure clients were current.

10.
                                   POPULATION FRAMES BY SAMPLE STATE:

                State                          Custodial Parents        Noncustodial Parents
          Missouri                                 190,114                   187,300
          New Jersey                               173,081                   160,810
          Texas                                    364,921                   371,775
          Washington                               144,513                   146,104
          Total                                    872,629                   865,989




CSE Customer Service: Perceptions of Parents                       11                             OEI-06-02-00250
11.	       Van Houten, Therese and Brenda Cox. “A Child Support Enforcement Customer Service
           Satisfaction Survey.” The Urban Institute, Washington, D.C.; February, 1998, 3.

12.	       Dillman, Don A. Mail and Internet Surveys: The Tailored Design Method (Second Edition).
           John Wiley and Sons, New York; 2000, 268 - 280.

13.



                                               Table 1: Methods of Parent Contact

            Method of Contact                            Custodial Parents          Noncustodial Parents
                                                             n = 487                      n = 196

                    Any contact with agency               96%            (467)        92%         (180)

                    Telephoned the office                 91%            (443)        86%         (169)

                    Visited the office                    58%            (283)        61%         (120)

                    Attempted to visit the website        11%            (54)         10%         (20)


            Source: Analysis of Survey Responses, Office of Inspector General




14.	       Among the respondents who telephoned, 32 percent of parents reached a fully-automated
           telephone system with no option for a live representative, and 30 percent reached a live
           representative with no automated menu. The largest proportion at 38 percent reached a system
           that combines both by offering an automated menu with access to a live representative as an
           option.




CSE Customer Service: Perceptions of Parents                        12                       OEI-06-02-00250
             APPENDIX A: Comparison of Sample States to National Averages
                            at Time of Sample Selection

                                               Case Mix         % Cases
                Admin.                         (Current/          with
                Metho           Total            Never/         Collectio       Cost            Geographi
  State           d            Caseload         Former)             n       Effectiveness       c Location

                                                                                                  Midwest
 MO              State          362,156        26/51/23           40%            $3.03
                                                                                                (Region VII)

                                                                                                 Northeast
 NJ             County          371,426        23/58/19           57%            $4.56
                                                                                                 (Region II)

                                                                                                  Southwest
 TX              State         1,215,245        20/78/3           21%            $3.96
                                                                                                 (Region VI)

                                                                                                 Northwest
 WA              State          320,846        20/46/33           67%            $4.37
                                                                                                 (Region X)


 Source: Office of Child Support Enforcement, Administration for Children and Families, U.S. Department
 of Health and Human Services, “Fiscal Year 1999 Preliminary Data Report.” Washington, D.C.;
 September, 2000.




CSE Customer Service: Perceptions of Parents               13                                      OEI-06-02-00250
           APPENDIX B: Descriptive Characteristics of Sample and Respondents

                                       CUSTODIAL PARENTS                  NONCUSTODIAL PARENTS

       Characteristic                  Sample         Respondents           Sample          Respondents

                                   #           %         #          %         #       %        #       %
       State
       MO                        325       21.7%        99        20.3%      338   22.5%      27   13.8%
       NJ                        259       17.3%        90        18.5%      303   20.2%      53   27.0%

       TX                        651       43.4%       214        43.9%      617   41.1%      72   36.7%
       WA                        265       17.7%        84        17.2%      242   16.1%      44   22.4%

                                1500                   487                  1500             196
       TANF Status
       Current                   155       10.3%        36         7.4%      169   11.3%      16     8.2%

       Former                    702       46.8%       189        38.8%      712   47.5%      81   41.3%
       Never                     642       42.8%       262        53.8%      618   41.2%      99   50.5%
                                1499                   487                  1499             196

       Children
       1                         894       62.4%       311        66.5%      936   63.9%     114   58.8%
       2                         416       29.1%       123        26.3%      383   26.1%      53   27.3%

       3                         122           8.5%     34         7.3%      146   10.0%      27   13.9%
                                1432                   468                  1465             194
       Gender

       Male                       82           5.5%     19         3.9%     1395   93.2%     184   93.9%
       Female                   1413       94.5%       466        96.1%      102     6.8%     12     6.1%

                                1495                   485                  1497             196
       Time as Client
       1 year                    135           9.0%     34         7.0%      134     8.9%     21   10.7%

       2 years                   154       10.3%        52        10.7%      163   10.9%      22   11.2%
       3-4 years                 277       18.5%        98        20.1%      263   17.5%      39   19.9%
       5-6 years                 518       34.5%       166        34.1%      488   32.5%      57   29.1%

       > 6 years                 416       27.7%       137        28.1%      452   30.1%      57   29.1%

                                1500                   487                  1500             196




CSE Customer Service: Perceptions of Parents                 14                                    OEI-06-02-00250
                               ACKNOWLEDGMENTS

           This report was prepared under the direction of Judith V. Tyler, Regional Inspector General for
           Evaluation and Inspections in Region VI. Other principal Office of Evaluation and Inspections staff
           who contributed include:

           Ruth Ann Dorrill, Team Leader                           Linda Hall, Program Specialist
           A. Blaine Collins, Program Analyst                      Barbara Tedesco, Statistician
           Deborah McGurk, Program Analyst
           Clark Thomas, Program Analyst
           Scott Whitaker, Program Analyst
           Lisa White, Administrative Officer




                                 For information or copies of this report, please contact
                                            the Office of Inspector General’s
                                        Public Affairs office at (202) 619-1343.
                     Reports are also available on the World Wide Web at our home page address:
                                                http://www.oig.hhs.gov/




CSE Customer Service: Perceptions of Parents             15                                OEI-06-02-00250
